WAIVER

Supreme Court of the United States

No. 20-1821
Anton Shifchik, et al, v. Wyndham Worldwide Corporation, et al.
(Petitioners) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
CG Lam filing this waiver on behalf of all respondents.

& Tonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

East Pass Investors, LLC; Emerald Grande, LLC; and Harborwalk Holding, LLC

 

 

Please check the appropriate box:

&& Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O fam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Lf
Signature_. Z G -
Date: 7-19-21

 

Eliyahu S. Scheiman
(XMr. OMs, OMrs, O Miss

(Type or print) Name

 

Firm Porzio, Bromberg & Newman, P.C.

 

Address 100 Southgate Parkway, P.O. Box 1997

 

City & State Morristown, New Jersey Zip 07962-1997

 

973-889-4232

Phone Email _esscheiman@pbnlaw.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ce: Edward J. DePascale, Esq.
Bruce H. Nagel, Esq.

 
